TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Security Over Databases Could Be Enhanced
                  to Ensure Taxpayer Data Are Protected


                                            May 4, 2011

                              Reference Number: 2011-20-044




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend

 2(f) = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


SECURITY OVER DATABASES COULD                          testing. As a result, the IRS spent more than
BE ENHANCED TO ENSURE TAXPAYER                         $1.1 million in software licenses and support
DATA ARE PROTECTED                                     costs for a tool that was not fully implemented.
                                                       WHAT TIGTA RECOMMENDED
Highlights                                             TIGTA recommended that the Chief Technology
                                                       Officer ensure: 1) the security vulnerabilities
Final Report issued on May 4, 2011                     identified on databases are remediated;
                                                       2) explicit management approvals are included
Highlights of Reference Number: 2011-20-044            in the database configuration building process;
to the Internal Revenue Service Chief                  3) a strategic plan is developed to address
Technology Officer.                                    outdated database versions; 4) outdated
                                                       databases are upgraded, planned to be
IMPACT ON TAXPAYERS                                    migrated to newer versions, or properly
                                                       approved to deviate from existing standards;
The Internal Revenue Service (IRS) uses more
                                                       5) database vulnerability scans are conducted
than 2,200 databases to manage and process
                                                       as required by policies; 6) database vulnerability
its taxpayer data. Databases are increasingly
                                                       scans test all high- and medium-risk
being targeted by attackers. When the right
                                                       configuration settings; and 7) a thorough
degree of security diligence is not applied to
                                                       technical product evaluation is consistently
databases, disgruntled insiders or malicious
                                                       conducted and documented for the purchase of
outsiders can exploit security weaknesses over
                                                       future software products.
databases and may gain unauthorized access to
taxpayer data, resulting in identity theft or fraud.   In its response to the report, the IRS agreed with
                                                       TIGTA’s recommendations. The IRS plans to:
WHY TIGTA DID THE AUDIT                                1) develop a strategy to ensure vulnerabilities
This review was included in TIGTA’s Fiscal             are documented; 2) identify appropriate
Year 2010 Annual Audit Plan and is part of our         organizations to develop a management
statutory requirements to annually review the          approval process to be used in the database
adequacy and security of IRS information               build and configuration change processes;
technology. This audit also addresses the major        3) develop a strategic plan for obsolescence of
management challenge of Security of the IRS.           technology, including database version control;
The overall objective of this review was to            4) develop a migration plan to upgrade database
determine whether the IRS adequately                   software to supported versions; 5) establish a
configured databases operating in its                  process for conducting monthly scans of
non-mainframe production environment to                databases; 6) establish a Memorandum of
properly secure taxpayer data.                         Understanding to ensure database vulnerability
                                                       scans are conducted with the privileges
WHAT TIGTA FOUND                                       necessary to test all high- and medium-risk
                                                       database configuration settings; and
TIGTA found that non-mainframe databases
                                                       7) create\designate a location to ensure all
containing taxpayer data were not always
                                                       Product Evaluation and Selection and testing
configured in a secure manner and that
                                                       documentation is accessible from a centralized
databases were running out-of-date software
                                                       location.
that no longer received security patches and
other vendor support.                                  The IRS disagreed with TIGTA’s $1.1 million
                                                       outcome measure related to the licensing of the
In addition, the IRS had not fully implemented its
                                                       IRS vulnerability scanning tool. TIGTA
plans to complete vulnerability scans of
                                                       maintains the appropriateness of the measure.
databases within its enterprise. Also, the IRS
purchased a database vulnerability scanning
and compliance assessment tool without the
completion of adequate product evaluation and
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             May 4, 2011



 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Security Over Databases Could Be
                             Enhanced to Ensure Taxpayer Data Are Protected
                             (Audit # 201020014)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) adequately configured databases operating in its non-mainframe production environment
 to properly secure taxpayer data. This review was included in the Treasury Inspector General for
 Tax Administration Fiscal Year 2010 Annual Audit Plan and is part of our statutory requirements
 to annually review the adequacy and security of IRS information technology. This audit also
 addresses the major management challenge of Security of the IRS.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or Alan Duncan,
 Assistant Inspector General for Audit (Security and Information Technology Services), at
 (202) 622-5894.
                                      Security Over Databases Could Be Enhanced
                                        to Ensure Taxpayer Data Are Protected




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 2
          Production Environment Databases Containing
          Taxpayer Data Were Not Configured in a Secure Manner ........................... Page 2
                    Recommendation 1:........................................................ Page 4

                    Recommendation 2:........................................................ Page 5

          Production Environment Databases Were Running
          Out-of-Date Database Software That No Longer
          Receives Security Patches and Other Vendor Support ................................. Page 5
                    Recommendations 3 and 4: .............................................. Page 8

          Complete Vulnerability Scans of Databases at the
          Frequency Required by Agency Standards Were Not
          Being Conducted ........................................................................................... Page 9
                    Recommendations 5 through 7:......................................... Page 12

          Other Issues From the Prior Audit Report Were
          Adequately Addressed .................................................................................. Page 13

Apppendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Outcome Measure ................................................................ Page 20
          Appendix V – Management’s Response to the Draft Report ....................... Page 21
        Security Over Databases Could Be Enhanced
          to Ensure Taxpayer Data Are Protected




              Abbreviations

ACIO    Assistant Chief Information Officer
DBMS    Database Management System
IBM     International Business Machines
IRM     Internal Revenue Manual
IRS     Internal Revenue Service
MITS    Modernization and Information Technology Services
RDBMS   Relational Database Management System
SQL     Standard Query Language
TIGTA   Treasury Inspector General for Tax Administration
                              Security Over Databases Could Be Enhanced
                                to Ensure Taxpayer Data Are Protected




                                         Background

Data are often referred to as the “crown jewels” of an organization because data represent the
organization’s core business purpose. Data can consist of customer records, trade secrets,
business partners, or any other highly sensitive information. For the most part, data in its
electronic form are often stored in a database management system (DBMS), which uses standard
methods for accepting and managing incoming data, cataloging and storing the data, and
providing ways for the data to be modified or extracted by users or other programs. Databases
are increasingly being targeted by attackers. A 2009 report1 on data breaches cited that
30 percent of all known security breaches were against databases. This trend was particularly
disturbing because when a database was breached, 75 percent of the records were compromised.
The Internal Revenue Service (IRS) employs almost 100,000 employees and operates more than
200 applications to administer our Nation’s tax laws and regulations. The IRS relies on more
than 2,200 databases to manage and process data, such as personally identifiable taxpayer
information and sensitive financial/tax information, on its computer systems. Two database
management software products are primarily used in the IRS’s non-mainframe computer
processing environment: Oracle and Microsoft Standard Query Language (SQL) Server.
The Treasury Inspector General for Tax Administration (TIGTA) previously issued an audit
report on database security2 in which we reported that the prescribed IRS database security
policies adequately aligned with Federal Government guidelines and best practices. However, at
that time, we found databases did not fully comply with IRS policy because standard database
security configurations were poorly communicated, security roles and responsibilities were not
assigned or carried out, and tests to detect noncompliance were inadequate.
Our current database security review was performed at the IRS National Headquarters in
New Carrollton, Maryland, in the Office of Cybersecurity within the Chief Technology Officer’s
Modernization and Information Technology Services (MITS) organization during the period
January through October 2010. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.

1
 2009 Data Breach Investigations Report, conducted by the Verizon business risk team.
2
 Standard Database Security Configurations Are Adequate, Although Much Work Is Needed to Ensure Proper
Implementation (Reference Number 2007-20-129, dated August 22, 2007).
                                                                                                    Page 1
                            Security Over Databases Could Be Enhanced
                              to Ensure Taxpayer Data Are Protected




                                 Results of Review

Production Environment Databases Containing Taxpayer Data Were
Not Configured in a Secure Manner
The Internal Revenue Manual (IRM) 10.8.4, Relational Database Management System
(RDBMS) Security Configurations, provides general security standards for databases and
requires that all DBMS installations operated by the IRS shall comply with the provisions of this
IRM. The IRM states that all requirements detailed in this policy apply to all IRS databases
regardless of vendor product or version. IRS requirements specific to Oracle Database Server
and Microsoft SQL Server are covered in individual exhibits.
We used database vulnerability assessment software to conduct remote scans of the primary
databases for 13 applications supporting critical tax administration business processes. Of these
13 applications, ***************************2(f)*********************************.
We tailored the scan policies to reflect security configurations set forth by the IRM and found
high- and medium-risk vulnerabilities, as classified by the scanning tool, in each of the
13 databases in the following security vulnerability categories:
   •   The account management control area includes management of individual user account
       profiles. Vulnerabilities identified in this area included the existence of default or generic
       accounts and inappropriate password settings.
   •   The privilege management control area includes the management of user access to
       sensitive files and utilities on the database. Vulnerabilities identified in this area included
       management of powerful administrative privileges that should be assigned according to
       specific job functions.
   •   The operating system protection control area includes management of access to sensitive
       system files and program code. Vulnerabilities in this area included inappropriate user
       access to system source code and source code that is not protected by encryption.
Figure 1 presents the security vulnerabilities identified in each of the 13 database systems on the
applications reviewed.




                                                                                               Page 2
                              Security Over Databases Could Be Enhanced
                                to Ensure Taxpayer Data Are Protected



                Figure 1: Number of Security Vulnerabilities Identified In
                  Each Security Vulnerability Category by Application

                                                Database Security Vulnerability Category
                                              Account        Privilege    Operating System
          IRS Application                    Management     Management       Protection
           ***2(f)***
                                                     3           2                2

           ***2(f)***                                 4              7           0
           ***2(f)***                                 7          5               3
           ***2(f)***
                                                     3           4                2

          ***2(f)***                                  3          3                0
          ***2(f)***                                  3          3                1
          ***2(f)***                                 10          4                1
           ***2(f)***
                                                     5           3                0

           ***2(f)***                                5           5                0

           ***2(f)***                                4          10                3
           ***2(f)***
                                                     6           4                3
           ***2(f)***
                                                     3           3                2
          ***2(f)***
                                                     5           5                2

                                   Totals            61         58               19
 Source: TIGTA analysis of automated scan results.

In several cases, the databases contained the default settings from the previous software
installation or upgrade. When the results of the scans were presented to IRS personnel
responsible for management of the databases, management advised us that some of the databases
were built prior to the governing IRM database configuration policy and some of the databases
were misconfigured as a result of oversight. In addition, management cited one possible
systemic cause being that the database scanning technology has not yet been fully deployed
across its database environment, which would have allowed database administrators to regularly
scan and detect database parameter misconfigurations.

                                                                                        Page 3
                            Security Over Databases Could Be Enhanced
                              to Ensure Taxpayer Data Are Protected



We also found the IRS has three separate groups within the MITS organization with roles in the
non-mainframe database administration environment.
   1. The Applications Development office has responsibility for the initial database design
      and development and issues transmittals authorizing changes to the database software
      when necessary.
   2. Database administrators in the Enterprise Operations office are responsible for
      implementing the changes described in the transmittals.
   3. The Cybersecurity office is responsible for monitoring the configuration of database
      software and identifying inconsistencies.
We believe the lack of database configuration management in the IRS is a direct result of
database configuration management being a loosely shared responsibility across several
MITS organization offices. Further, our discussions with IRS officials verified that no single
office has the responsibility to ensure IRS databases are configured appropriately, which
highlights the need for an approval process for configuring secure settings on databases.
In our prior audit, we recommended that the IRS correct database security control weaknesses
identified at that time. The IRS agreed with this recommendation and stated that each of the
database security control weaknesses that the TIGTA identified would be included in the
corrective plans of actions and milestones document. However, we reviewed the plans of actions
and milestones documents from Fiscal Years 2007 and 2008 for those systems tested in the
previous audit and could not determine if the weaknesses were entered, addressed, or closed. As
a result, we have no assurance that the previous security weaknesses were corrected.
Exploitation of the security vulnerabilities on databases could result in the unauthorized access to
taxpayer information and could ultimately result in identity theft or fraud. Also, if these systems
were to be corrupted or disabled, the IRS tax processing system could be adversely affected.

Recommendations
Recommendation 1: The Chief Technology Officer should ensure the vulnerabilities
identified in the 13 systems scanned during the current audit, as well as any other high-risk
security vulnerabilities identified through automated scans and manual reviews, are remediated.
Otherwise, a properly approved deviation should be on file to justify departure from stated
standards.
       Management’s Response: The IRS agreed with this recommendation. The
       Assistant Chief Information Officer, Cybersecurity, in partnership with the Enterprise
       Operations organization, plans to 1) ensure the vulnerabilities identified in the 13 systems
       scanned during the current audit are remediated or documented in a plan of actions and
       milestones and 2) develop an Enterprise process and remediation strategy to ensure that

                                                                                             Page 4
                           Security Over Databases Could Be Enhanced
                             to Ensure Taxpayer Data Are Protected



       high-risk vulnerabilities identified during periodic database scans are documented in a
       plan of actions and milestones.
Recommendation 2: The Chief Technology Officer should ensure explicit management
approvals are included in the IRS database configuration building process and the IRS database
configuration change process to ensure that databases are properly configured according to the
standards cited in IRM 10.8.4, RDBMS Security Configurations.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       identify appropriate organizations to develop an explicit management approval process to
       be used in the database build and configuration change processes to ensure the databases
       are properly configured.

Production Environment Databases Were Running Out-of-Date
Database Software That No Longer Receives Security Patches and
Other Vendor Support
IRM 10.8.4, RDBMS Security Configurations, states that each organization responsible for the
management of a database shall ensure that unsupported DBMS software is removed or
upgraded to a supported version prior to a vendor dropping support and shall ensure a formal
migration plan exists for removing or upgrading the DBMS prior to the date the vendor drops
security patch support. Not having vendor support means the databases are not patched by
vendors to address newly discovered security vulnerabilities and are vulnerable to attack. As a
follow-on requirement to protect the DBMS environment, the IRM also states that database
administrators shall ensure the DBMS patch level is current.
Our analysis of a scan conducted by the IRS in the first quarter of Fiscal Year 2010 showed that,
of 1,879 databases within the IRS’s production computing environment, 326 (48 percent) of
676 Oracle databases and 448 (37 percent) of 1,203 SQL databases were running versions of
database software that were no longer supported by the vendor. Figure 2 presents the Oracle and
SQL databases reviewed and which versions are no longer supported by the vendors.




                                                                                           Page 5
                               Security Over Databases Could Be Enhanced
                                 to Ensure Taxpayer Data Are Protected



                            Figure 2: Database Systems by Version

                                           The Number of               Percentage of
      Software by Version                Database Servers in        Unsupported Versions
         (out of support                 the IRS Production             Within Each
      versions are in bold)                 Environment               Database System
              Oracle 8i                                173                     26%
              Oracle 9i                                153                     23%
             Oracle 10g                                343                  Supported
             Oracle 11g                                 7                   Supported
    Oracle Total                                       676
              SQL 2000                                 448                     37%
              SQL 2005                                 754                  Supported
              SQL 2008                                   1                  Supported
    SQL Total                                      1,203
    Total Database Servers                         1,879
   Source: TIGTA analysis of automated scan results.

The overall percentage of unsupported versions for the Oracle database would have been
significantly higher because the Oracle 10g version category includes earlier releases that are no
longer supported by the vendor. However, due to limitations of the software used by the IRS to
collect the data, our analysis was restricted to only the version level (e.g., 10g) and not the more
granular version and release level (e.g., 10g, Release 10.2.0.2).
In response to our requests for strategic database plans to address outdated database versions,
IRS management did not provide any documentation and informed us that while informal
discussions had been held within the Enterprise Operations office regarding the need to migrate
to currently supported versions, no enterprise-wide actions have been taken. As mentioned in the
previous finding, we believe the lack of strategic database management in the IRS is a direct
result of database management being a shared responsibility across several IRS offices, including
the MITS organization’s Enterprise Operations, Applications Development, and Cybersecurity
offices, as well as IRS business program management.
When outdated and unsupported database versions are used, the organization is susceptible to
performance and security weaknesses inherent to older versions. As shown in Figure 3, we
found that 6 of the 13 database systems we selected for detailed testing did not have the current
critical patch updates or service pack installed. The *****2(f)*************are potentially at

                                                                                              Page 6
                                Security Over Databases Could Be Enhanced
                                  to Ensure Taxpayer Data Are Protected



risk for having between 20 and 193 security vulnerabilities, depending on when the latest patch
had been applied. The ***2(f)*************** did not have the current patches applied was at
risk for 16 security vulnerabilities.
Figure 3: Potential Vulnerabilities in Database Systems With Out-of-Date Software

                                                                                               Number of
                                                                                                Potential
                                                                                                Security
                                      Database                                               Vulnerabilities
          IRS Application              Version             Last Patch Applied               Since Last Patch

                                                        Critical patch update released
        *****2(f)*****
1                                 Oracle 10g            in July 2009 applied on                    30
                                                        November 1, 2009.
        *****2(f)*****                                  Critical patch update released in
2                                 Oracle 9i             January 2010 applied                       20
                                                        on February 28, 2010.
                                                        Critical patch update released
        *****2(f)*****
3                                 Oracle 10g 10.1.0.4   in April 2007 applied on                  193
                                                        June 3, 2007.
                                                        Critical patch update released
        *****2(f)*****
4                                 Oracle 10g 10.2.0.2   in October 2007 applied on                146
                                                        October 27, 2007.
                                                        Critical patch update released in
5       *****2(f)*****            Oracle 10g 10.2.0.2   October 2007 applied on                   146
                                                        December 9, 2007.
        *****2(f)*****                                  Service Pack 4 8.00.2055
6                                 SQL 2000                                                         16
                                                        released in February 2009.
Source: TIGTA analysis of automated scan results.

A critical patch update ***2(f)****** and a service pack **********2(f)****** are bundles of
software fixes or patches released to provide corrections to weaknesses in operating systems or
software products. ********************************2(f)***************************
****************2(f)***********************************************************
******2(f)************************. Both critical patch updates and service packs address
security weaknesses that compromise:
    •     Data confidentiality – An attacker is able to view information that he or she should be
          prevented from viewing.
    •     Data integrity – An attacker is able to modify information that he or she should be
          prevented from modifying.


                                                                                                        Page 7
                                  Security Over Databases Could Be Enhanced
                                    to Ensure Taxpayer Data Are Protected



    •    System availability – An attacker is able to disrupt legitimate use of or access to a
         system.
The IRS acknowledged that these database systems were not running vendor supported software
and, therefore, could not be patched to current levels. The IRS did not provide evidence to
support its rationale for not updating these sample systems to a current DBMS or that it had
planned upgrades to the systems. However, a Cybersecurity office executive shared with us an
email from another MITS organization executive on some problems encountered after they
upgraded the database version of one of the systems we reviewed. The email indicated that the
application became unstable and was intermittently operational and nonoperational. To address
the problems, they had engaged the vendor and database experts.
The IRS advised us that costs to upgrade its database software to currently supported versions
are difficult to estimate but would primarily consist of the labor costs of full-time equivalents3 to
implement needed modifications to existing production applications to achieve compatibility
with the newer versions of database software. We believe the IRS could be wasting funds by not
upgrading or patching its database software that is covered by its enterprise software licenses.

Recommendations
Recommendation 3: The Chief Technology Officer should ensure an enterprise-wide
strategic plan is developed to address the outdated database version management issues prevalent
in the IRS production environment.
         Management’s Response: The IRS agreed with this recommendation. The IRS
         Enterprise Services organization will coordinate with the affected stakeholders to develop
         a strategic plan for obsolescence of technology to include database version control.
Recommendation 4: The Chief Technology Officer should ensure databases with
out-of-support DBMS software are upgraded to currently supported versions within a reasonable
time period. For those systems where upgrading the database software or implementing security
patches have been determined to be dangerous to the stability of the system, a migration plan
should be developed and a properly approved deviation should be on file to justify departure
from stated standards.
         Management’s Response: The IRS agreed with this recommendation. The
         Assistant Chief Information Officer, Enterprise Services, will coordinate with affected
         stakeholders to develop a migration plan to upgrade the database management software to
         currently supported versions. An inventory of all servers with databases on them and


3
 A measure of labor hours in which 1 full-time equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2010, 1 full-time equivalent is equal to 2,088 staff
hours.
                                                                                                              Page 8
                                Security Over Databases Could Be Enhanced
                                  to Ensure Taxpayer Data Are Protected



        their associated software version will be created. Enterprise Services will then outline
        steps to take to address the versions older than n-1 and install updates accordingly.
        Enterprise Services will establish on ongoing monitoring of servers and institutionalize a
        process to keep software current.

Complete Vulnerability Scans of Databases at the Frequency
Required by Agency Standards Were Not Being Conducted
The National Institute of Standards and Technology’s Special Publication 800-39, Integrated
Enterprise-Wide Risk Management: Organization, Mission, and Information System View,
emphasizes the practice of continuous monitoring. It states that a well-designed and
well-managed continuous monitoring program can effectively transform an otherwise static
security control assessment and risk determination process into a dynamic process that provides
essential, near real-time security status information to appropriate organizational officials. This
information can be used to maintain a current understanding of the security state and risk posture
of the organization and facilitate appropriate risk mitigation actions.
As of October 1, 2009, IRM 10.8.1, Information Technology Security – Policy and Guidance,
requires the IRS to conduct monthly vulnerability scans of its systems that have a high or
moderate rating, based on the Federal Information Processing Standards Publication 1994 rating
of systems. Prior to this date, the IRM required the IRS to scan these systems on a quarterly
basis. Also, IRM 10.8.4, RDBMS Security Configurations, requires that all DBMS installations
operated by the IRS, or operated by an IRS contractor on behalf of the IRS, shall comply with
the provisions of this IRM. The IRM states that all requirements detailed in this policy apply to
all IRS databases, regardless of vendor product or version. IRS requirements specific to Oracle
Database Server and Microsoft SQL Server are covered in individual exhibits.
In our August 2007 report, we recommended the Chief Information Officer develop an
implementation plan for the organization’s database compliance assessment tool that adequately
defines the scope of the databases tested, the requirements to be tested, the timing of tests, and
the schedule for implementation. The IRS agreed with this recommendation and stated that it
would implement a process for detecting noncompliance with database security requirements. In
June 2007, the IRS purchased the Application Security’s DbProtect AppDetective as its database
vulnerability scanning and compliance assessment tool.
In our current review, we found that the implementation plan had been developed but had not
been fully implemented. IRS management explained that they experienced significant technical


4
  Federal Information Processing Standards Publication 199, Standards for Security Categorization of Federal
Information and Information Systems, provides standards to be used by all Federal agencies to categorize all
information and information systems collected or maintained by or on behalf of each agency based on the objectives
of providing appropriate levels of information security according to a range of risk levels.
                                                                                                          Page 9
                            Security Over Databases Could Be Enhanced
                              to Ensure Taxpayer Data Are Protected



difficulties in implementing DbProtect AppDetective as a regular recurring scanning tool for the
IRS’s database environment. Management stated that the difficulties were due to the many
different implementations of the database software across the environment. During the period
April 2009 to February 2010, we found that the IRS conducted vulnerability scans of only 79 of
its 1,879 non-mainframe databases. These scans were ad hoc in nature and not part of a formal
database compliance testing program.
Further, when we reviewed the IRS scanning policy against which databases are tested to ensure
it included tests for controls provided in the IRM standard database configurations, we found the
IRS scanning policy did not include checks for 42 Oracle and 26 SQL high- and medium-risk
security settings. We believe the IRS database scanning policy omitted these high- and
medium-risk tests because the necessary access privileges had not been established to allow the
tool to scan these sensitive security settings. Instead, the IRS relied on the results provided by
the limited scans. The IRS Cybersecurity office recently began drafting procedures for
conducting vulnerability scans of its computer environment. These procedures include regularly
scheduled scans and ad hoc scans that systems stakeholders may request whenever needed.
In its MITS organization Cybersecurity Operations: Technical Roadmap, dated August 2007, the
IRS stated:
       By exploiting un-patched and un-remediated vulnerabilities in our databases,
       disgruntled insiders or malicious outsiders may gain unauthorized access to our
       most sensitive information. Database vulnerabilities exist for several reasons
       including technological weaknesses, poor security-control implementation, lack
       of training, and absences of effective oversight. Routine quarterly scans to detect
       and correct database vulnerabilities and misconfigurations are essential to
       ensuring the right degree of security diligence is being applied to IRS databases.
By not having regular and complete monthly database scans checking for key required parameter
settings, the IRS has not met this goal of ensuring security diligence is applied to IRS databases
and is not proactively identifying insecure databases within its computing environment.
As a secondary issue on the database vulnerability scanning tool, we also found that the IRS had
purchased the DbProtect AppDetective database vulnerability scanning tool without completing
adequate product evaluation and testing. The National Institute of Standards and Technology’s
Special Publication 800-100, Information Security Handbook: A Guide for Managers, lists the
following questions that should be posed by an organization prior to the selection of information
security products.
   •   Have policies been developed for the use of products as appropriate?
   •   Have operational issues such as daily operation, maintenance, contingency planning,
       awareness and training, and documentation been considered?
   •   Have security requirements been identified and compared against product specifications?
                                                                                             Page 10
                                Security Over Databases Could Be Enhanced
                                  to Ensure Taxpayer Data Are Protected



    •   Have total life cycle support, ease-of-use, scalability, and interoperability requirements
        been determined?
    •   Have test requirements for acceptance and integration testing and configuration
        management been developed?
Similarly, the Control Objectives for Information and Related Technology5 sets forth control
objectives for the process of acquiring and maintaining application software. This specific
guidance recommends mapping business requirements to design specifications for software
acquisition and taking into account the organization’s technological direction and information
architecture. The Control Objectives for Information and Related Technology recommends
having management approve the design specifications to ensure that the high-level design
responds to the requirements.
When the IRS Cybersecurity organization licensed Application Security’s DbProtect
AppDetective database vulnerability assessment software tool in June 2007, the IRS had planned
to use the tool to conduct regularly scheduled enterprise-wide scans of IRS databases. As
mentioned previously, this scanning tool was part of the IRS’s corrective actions from our prior
review.
In our current review, however, we determined the DbProtect AppDetective scanning tool was
never fully implemented. In addition to the technical difficulty in implementing the tool, IRS
management stated they would have incurred significant additional licensing costs to license the
tool for their International Business Machines (IBM) mainframe database environment. IRS
management decided upon an alternative action to license another database scanning tool in
May 2010, IBM’s Guardium, to replace the DbProtect AppDetective database scanning tool.
The IRS justified the alternative procurement stating that Guardium would provide a
cost-effective vulnerability assessment for the mainframe database environment and real-time
monitoring of database servers to enable the IRS to identify any changes made to database
configurations.
When we requested DbProtect AppDetective product evaluation documentation, the IRS could
not provide any product evaluation or control testing documentation justifying its licensing of the
DbProtect AppDetective. We believe a technical evaluation of the product’s ability to satisfy
IRS requirements, and control testing thereof, would have informed the IRS of the actual costs of
implementing the DbProtect AppDetective scanning tool across all database products, including
its mainframe database environment. Without an adequate product evaluation of the DbProtect
AppDetective tool, the IRS was not fully aware of the tool’s limitations, including its


5
  The Control Objectives for Information and Related Technology is a complete, internationally accepted process
framework for information technology that supports business and information technology management in their
definition and achievement of business goals and related information technology goals by providing a
comprehensive information technology governance, management, control, and assurance model.
                                                                                                         Page 11
                            Security Over Databases Could Be Enhanced
                              to Ensure Taxpayer Data Are Protected



applicability to the IBM mainframe environment. Consequently, the IRS spent more than
$1.1 million in software licenses and support costs for a tool that was not fully implemented.

Recommendations
Recommendation 5: The Chief Technology Officer should ensure vulnerability scans of
IRS databases are conducted in the frequency required by the IRM and any security weakness
identified should be corrected or approved for deviation from security policies.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       Cybersecurity organization’s Penetration Testing and Code Analysis group will establish
       a formal process for conducting monthly agency-wide scans of IRS databases. In
       addition, the Penetration Testing and Code Analysis group will transmit identified
       weaknesses to the stakeholders, and the System/Program Owner and Information
       Systems Security Officer will formulate appropriate remediation actions.
Recommendation 6: The Chief Technology Officer should ensure database vulnerability
scans are conducted with the access privileges necessary to test all high- and medium-risk
database configuration settings.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       Cybersecurity organization’s Penetration Testing and Code Analysis group will establish
       a Memorandum of Understanding with the Enterprise Operations organization and
       Systems Owners to ensure database vulnerability scans are conducted with the access
       privileges necessary to test all high- and medium-risk database configuration settings.
Recommendation 7: The Chief Technology Officer should ensure a thorough technical
product evaluation and testing of key functional requirements is consistently conducted and
documented for the acquisition of software products.
       Management’s Response: The IRS agreed with this recommendation. The IRS has
       established Product Selection Guidance and has controls in place for technical product
       evaluation and testing of key functional requirements. The Change Control governance
       process ensures thorough product evaluation and testing has been completed prior to
       product acquisition following the Product Evaluation and Selection Guidance. In
       addition, a centralized repository exists documenting all change requests and their
       disposition. The IRS can create/designate a location to ensure all Product Evaluation and
       Selection and testing documentation is stored or accessible from a centralized location.
       Office of Audit Comment: IRS did not agree with the Outcome Measure (see
       Appendix IV) relating to the purchase of the DbProtect AppDetective software tool. In
       its response, the IRS stated that DbProtect AppDetective was the best available tool at the
       time of the purchase, met the immediate needs for a database vulnerability scanning
       capability in response to TIGTA’s audit recommendation, and was put into production

                                                                                          Page 12
                                Security Over Databases Could Be Enhanced
                                  to Ensure Taxpayer Data Are Protected



        use. The IRS also stated that ongoing costs and business requirements were the main
        reasons for changing to a new database scanning tool. We disagree that the tool was
        purchased in response to an audit recommendation. The IRS purchased DbProtect
        AppDetective in June 2007, and the previous audit report was issued in August 2007. In
        addition, the report contained a recommendation that IRS develop a formal
        implementation plan for the tool, which IRS agreed to but never completed. We also
        disagree that DbProtect AppDetective was put into production use. As noted in the
        finding, the IRS conducted scans of only 79 of its 1,879 non-mainframe databases from
        April 2009 to February 2010. After preliminary discussions with IRS management, the
        outcome measure was adjusted to reflect this limited use of the tool. No further
        adjustment to Appendix IV was made.

Other Issues From the Prior Audit Report Were Adequately Addressed
As part of this review, we followed up on the IRS’s corrective actions to the seven
recommendations from our prior report and determined that corrective actions for all seven
recommendations were taken and each of the corrective actions was reported as closed on the
Joint Audit Management Enterprise System.6 Specifically, our followup work determined that
the IRS had:
    •   Adequately publicized the standard database configurations.
    •   Ensured internal web sites referred to the Cybersecurity office’s web site for current
        security configurations.
    •   Ensured security administration responsibilities were properly assigned.
    •   Ensured employees are aware of their database security responsibilities.
    •   Ensured that security testing evaluates compliance with standard database security
        configurations.
However, we identified database weaknesses had not been adequately addressed prior to their
closure on the Joint Audit Management Enterprise System for two recommendations.
    •   The Chief Information Officer should ensure the database security control weaknesses we
        identified are corrected.
    •   The Chief Information Officer should develop an implementation plan for the
        organization’s database compliance assessment tool that adequately defines the scope of



6
  The system used by the Department of the Treasury to record and monitor audit findings and corrective actions
taken to address findings from audit reports.
                                                                                                          Page 13
                            Security Over Databases Could Be Enhanced
                              to Ensure Taxpayer Data Are Protected



       the databases tested, the requirements to be tested, the timing of the tests, and the
       schedule for implementation.
Both of these two remaining corrective actions are mentioned within the context of the current
findings identified during the course of this review.




                                                                                               Page 14
                                Security Over Databases Could Be Enhanced
                                  to Ensure Taxpayer Data Are Protected



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS adequately configured
databases operating in its non-mainframe production environment to properly secure taxpayer
data. We also assessed the IRS’s progress in implementing corrective actions reported during
our prior audit.1
We selected an initial sample of 20 primary production databases for detailed testing from the
total IRS environment of 226 applications.2 We used a judgmental sample to ensure we
conducted detailed testing on applications that are considered high impact in the IRS. These
databases were selected according to the following criteria in order of importance: applications
classified as major applications according to criteria provided by Federal Information Processing
Standards Publication 199, applications that process Sensitive but Unclassified data, and
applications that use Oracle or Microsoft SQL as the database management software. To
accomplish our objective, we:
I.      Assessed the adequacy of IRS database strategic planning and database security policies.
        A. Obtained and reviewed the IRS’s strategic database planning documents regarding
           DBMS program products and versions. We commented on the reasonableness of the
           plan in terms of the number of supported program products, plans to migrate from
           out-of-support products, and plans to roll out newer versions of vendor supported
           program products.
        B. Reviewed assigned roles and responsibilities for database security (e.g., who develops
           configuration policy, who implements configuration policy, and who monitors
           compliance with database configuration policy) to ensure roles and responsibilities
           are adequately defined. We verified that duties to implement configuration policy
           and monitor compliance with database configuration policy are appropriately
           segregated.
        C. Determined, as a followup to our prior audit, whether database administrators are
           assigned for the SQL and Oracle databases that were included in our current sample
           for detailed testing. We also determined if security specialist roles are assigned for
           the databases that were included in our sample for detailed testing.

1
  Standard Database Security Configurations Are Adequate, Although Much Work Is Needed to Ensure Proper
Implementation (Reference Number 2007-20-129, dated August 22, 2007).
2
  Seven of the 20 databases were removed from the sample due to technical issues experienced when conducting the
scans.
                                                                                                       Page 15
                           Security Over Databases Could Be Enhanced
                             to Ensure Taxpayer Data Are Protected



       D. Validated, as a followup to our prior audit, processes in place to ensure employees are
          aware of their database security responsibilities.
       E. Conducted an updated review of the Oracle and SQL database policies that changed
          since our last review.
       F. Verified whether approved IRS IRM database policy exists for versions of database
          management products executing in the IRS non-mainframe production environment.
       G. Interviewed database management personnel to determine reasons for any variance
          from the standards.
II.    Assessed the adequacy of IRS configuration management processes over its databases.
       A. Reviewed the inventory management, version management, database configuration
          parameters, database configuration parameter change control, and patch management
          processes.
       B. Interviewed database management personnel to determine reasons for any variance
          from the standards.
III.   Assessed the effectiveness of IRS database identification and authentication controls.
       A. Reviewed the authentication method that the IRS chose for installation of its database
          software to ensure the authentication method adheres to IRS minimum security
          requirements in IRM 10.8.4, RDBMS Security Configurations.
       B. Determined whether the recommended authentication methods were being used.
       C. Interviewed database management personnel to determine reasons for any variance
          from the standards.
IV.    Determined whether adequate database access and authorization controls were in place
       by using the DbProtect AppDetective scanning tool to verify security settings.
       A. Compared IRS IRM database security policies to the IRS’s customized DbProtect
          AppDetective policy to verify existence of and agreement for key parameter settings.
       B. Conducted DbProtect AppDetective scans in the control areas of account
          management, privilege management, trusted link management, operating system
          protection, network access, and remote management for the sample databases to
          ensure the database parameters and settings were appropriate, according to guidance
          provided in IRM 10.8.4, RDBMS Security Configurations.
       C. Interviewed database management personnel to determine reasons for any variance
          from the standards.



                                                                                         Page 16
                           Security Over Databases Could Be Enhanced
                             to Ensure Taxpayer Data Are Protected



V.     Assessed the adequacy of IRS vulnerability management over its databases.
       A. Verified, as a followup to our prior audit, whether the database security control
          weaknesses that TIGTA identified were corrected.
       B. Verified, as a followup to our prior audit, whether annual security testing evaluates
          compliance with standard database security configurations.
       C. Verified, as a followup to our prior audit, whether the IRS had established an
          appropriate database compliance testing process, including evaluating the database
          scanning tool used and defining the scope of the databases tested, the requirements to
          be tested, the timing of the tests, and the schedule for implementation.
       D. Determined the actual frequency of database scans for a recent 6-month period.
       E. Determined whether high- and medium-priority database vulnerabilities were
          properly managed and mitigated in a timely manner for a recent 3-month period.
       F. Interviewed database management personnel to determine reasons for any variance
          from the standards. If applicable, we obtained and reviewed any waiver or other
          documentation justifying the variance from standards.
VI.    Assessed the adequacy of database security awareness and training.
       A. Reviewed and verified, as a followup to our prior audit, whether security
          documentation is publicized to Database Administrators and Systems Administrators.
       B. Verified, as a followup to our prior audit, whether the IRS Cybersecurity office’s
          intranet site refers to the current security configurations.
       C. Reviewed a list of Database Administrators and associated specialized database
          security training they have received over the last 3 to 5 years.
       D. Interviewed database management personnel to determine reasons for any variance
          from the standards.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS Enterprise Operations policies and
procedures for managing the configuration of its database systems, including patch and
vulnerability management. We evaluated these controls by conducting vulnerability scans of the
database systems, comparing the results of those scans to standards established by the IRS in its
IRM, and also interviewing management responsible for those systems.

                                                                                          Page 17
                          Security Over Databases Could Be Enhanced
                            to Ensure Taxpayer Data Are Protected



                                                                              Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Carol Taylor, Audit Manager
Myron Gulley, Lead Auditor
Louis Lee, Senior Auditor
Elton Jewell, Information Technology Specialist
Monique Queen, Information Technology Specialist




                                                                                     Page 18
                         Security Over Databases Could Be Enhanced
                           to Ensure Taxpayer Data Are Protected



                                                                       Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management OS:CTO:SP:RM




                                                                             Page 19
                           Security Over Databases Could Be Enhanced
                             to Ensure Taxpayer Data Are Protected



                                                                                Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
Inefficient Use of Resources – Actual; $1,113,850 ($1,160,260 * 96 percent) (see page 9).

Methodology Used to Measure the Reported Benefit:
In June 2007, the IRS purchased the license for the DbProtect AppDetective vulnerability
scanning tool for $1,160,260 to address the need for formally scheduled scans of IRS databases
to ensure appropriate security configurations are maintained. However, we determined the tool
was never fully implemented. In addition to significant technical difficulty in implementing the
tool, IRS management stated that it would have incurred significant additional costs to license
the tool for its IBM mainframe database environment. The IRS then decided to pursue the
purchase of another tool that could be implemented across its entire computing environment.
We noted that IRS used the tool to complete scans for only 79 (4 percent) of the 1,879 databases
within its enterprise that it had expected to complete. To calculate the cost of the tool, we
multiplied the total cost ($1,160,260) by the percentage of databases that were not scanned by
the tool (96 percent), with the result of $1,113,850.




                                                                                         Page 20
         Security Over Databases Could Be Enhanced
           to Ensure Taxpayer Data Are Protected



                                                Appendix V

Management’s Response to the Draft Report




                                                     Page 21
Security Over Databases Could Be Enhanced
  to Ensure Taxpayer Data Are Protected




                                            Page 22
Security Over Databases Could Be Enhanced
  to Ensure Taxpayer Data Are Protected




                                            Page 23
Security Over Databases Could Be Enhanced
  to Ensure Taxpayer Data Are Protected




                                            Page 24
Security Over Databases Could Be Enhanced
  to Ensure Taxpayer Data Are Protected




                                            Page 25
